                                               OFFICE OF WORKERS
                                               COMPENSATION PROGRAMS


Office of Inspector General—Office of Audit





                                               AUDIT OF FEDERAL EMPLOYEES’
                                               COMPENSATION ACT, DURABLE MEDICAL
                                               EQUIPMENT PAYMENTS




                                               This audit was performed by WithumSmith+Brown PC, CPAs, under contract to the
                                               Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                               Inspector General.



                                                                        ____________________________
                                                                       Assistant Inspector General for Audit




                                                                           Date Issued:            March 26, 2012
                                                                           Report Number:          03-12-002-04-431
U.S. Department of Labor                                    March 2012
Office of Inspector General
Office of Audit                                             AUDIT OF FEDERAL EMPLOYEES’
                                                            COMPENSATION ACT, DURABLE MEDICAL
                                                            EQUIPMENT PAYMENTS
BRIEFLY…
Highlights of Report Number: 03-12-002-04-431, to the       WHAT OIG FOUND
Acting Director of the Office of Workers’ Compensation
Programs.                                                   The OIG found OWCP has a series of controls over its
                                                            DME payment administration process in order to reduce
WHY READ THE REPORT                                         the risk of improper payments and ensure that DME
                                                            costs are reasonable. OWCP utilizes a fee schedule to
The Office of Inspector General (OIG) audited claims        set maximum allowable amounts (MAA) that it will pay
paid by the Office of Workers’ Compensation Programs        for specific items of DME.
(OWCP) under the Federal Employees’ Compensation
Act (FECA) program for durable medical equipment            However, we found weaknesses in the documentation
(DME). The FECA program provides wage replacement           of the provider enrollment process. Several procedures
benefits, medical treatment, vocational rehabilitation,     were required to be performed to verify that providers
and other benefits to federal workers who experience        were legitimate, but documenting this process was not
work-related injury or occupational disease. DME is         required. As a result, OWCP had no assurance that
equipment that can withstand repeated use, serves a         these procedures were being adequately performed.
medical purpose, is generally not useful to a person in     We did not analyze non-DME providers, but noted that
the absence of illness or injury, and is appropriate for    OWCP requires its service provider to follow the same
use in a patient’s home. The audit covered DME claims       verification process for all medical providers.
totaling $12.6 million paid to 2,700 providers during the
period October 1, 2009, to December 31, 2010, which         We also found an increased risk of improper payments
represents approximately 1 percent of total medical bills   due to the high number of claims using a
paid by OWCP for the FECA program during this               “miscellaneous” procedure code, a lack of
period.                                                     documentation supporting a rental versus purchase
                                                            analysis, and insufficient controls over the
                                                            determination of price reasonableness for cases
WHY OIG CONDUCTED THE AUDIT                                 deemed catastrophic. Claims coded as DME–
                                                            Miscellaneous are at risk of being improper payments
In response to widely publicized cases of DME fraud in      because they are not subject to an MAA, and if
federal healthcare programs, OIG conducted the audit        approved by a Claims Examiner (CE) are “paid as
to answer the following question:                           billed.” Our review of a sample of claims identified more
                                                            than $68,000 in questionable payments.
    Did OWCP have adequate controls to ensure DME
    payments were proper and reasonable?                    WHAT OIG RECOMMENDED

                                                            We recommended that OWCP establish additional
READ THE FULL REPORT                                        controls to document the provider enrollment process;
                                                            ensure CEs analyze and document a determination of
To view the report, including the scope, methodology,       cost reasonableness before authorizing payments
and full agency response, go to:                            coded as DME-Miscellaneous, direct CEs to perform
                                                            and document rental versus new purchase analysis,
http://www.oig.dol.gov/public/reports/oa/2012/03-12-        strengthen controls over DME bills paid for catastrophic
002-04-431.pdf                                              cases, and initiate recovery of any overpayments
                                                            identified as a result of the audit.

                                                            In response to the draft report, OWCP indicated the
                                                            enrollment verification is already adequately
                                                            documented. It agreed to provide additional guidance to
                                                            claims staff to reinforce existing procedures over
                                                            miscellaneous DME, reinforce procedures and develop
                                                            new processes for rental versus purchase analysis, and
                                                            review current controls over catastrophic cases. OWCP
                                                            stated it does not have authority to recover
                                                            overpayments where rentals exceed purchase prices.
                                                                    Prepared by WithumSmith+Brown PC
                                           For the U. S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditors’ Report...................................................................................... 1
 

Results in Brief .............................................................................................................. 2
 

Objective — Did OWCP have adequate controls to ensure DME payments were 

            proper and reasonable? .......................................................................... 4
 

          Several of OWCP’s controls to prevent DME improper payments could be 

          strengthened......................................................................................................... 4
 

          Finding — OWCP has controls in place to reduce the risk of improper 

                   and unreasonable DME payments, but controls in several 

                   areas could be strengthened. .......................................................... 4
 

Recommendations ...................................................................................................... 10
 

Appendix A Background................................................................................................ 13
 
Appendix B Objectives, Scope, Methodology, and Criteria ........................................... 15
 
Appendix C Acronyms and Abbreviations ..................................................................... 17
 
Appendix D OWCP Response to Draft Report .............................................................. 19
 




                                                                          FECA Durable Medical Equipment Payments
                                                                                       Report No. 03-12-002-04-431
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                          FECA Durable Medical Equipment Payments
                                       Report No. 03-12-002-04-431
                                                                                         Prepared by WithumSmith+Brown PC
                                                                For the U. S. Department of Labor – Office of Inspector General

WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340                Independent Auditors’ Report
Silver Spring, Maryland 20910 USA
301.585.7990. fax 301.585.7975
                                               Mr. Gary A. Steinberg
www.withum.com
                                               Acting Director
Additional Offices in New Jersey
New York and Pennsylvania
                                               Office of Workers’ Compensation Programs
                                               U.S. Department of Labor
                                               200 Constitution Avenue, NW
                                               Washington, D.C. 20210

                                               The Federal Employees’ Compensation Act (FECA) authorized a
                                               disability compensation program administered by the Department of
                                               Labor’s (DOL) Office of Workers' Compensation Programs
                                               (OWCP). FECA provides wage replacement benefits, medical
                                               treatment, vocational rehabilitation and other benefits to federal
                                               workers or their dependents that experience work-related injury or
                                               occupational disease. FECA authorizes the payment for Durable
                                               Medical Equipment (DME), which is equipment that can withstand
                                               repeated use, serves a medical purpose, is generally not useful to a
                                               person in the absence of illness or injury, and is appropriate for use
                                               in a patient’s home. OWCP used a service provider contractor,
                                               Affiliated Computer Services (ACS), to process medical bills,
                                               including those for DME. There have been many incidents in which
                                               DME providers were investigated, charged, and convicted of
                                               fraudulent DME related billings to Medicare and Medicaid and other
                                               government programs. Therefore, there is a need for strong
                                               controls in this area. WithumSmith+Brown (WS+B), under contract
                                               with the DOL OIG, audited OWCP’s process for paying medical
                                               claims for DME.

                                               The audit objective was to answer the following question: Did
                                               OWCP have adequate controls to ensure DME payments were
                                               proper and reasonable?

                                               The audit covered DME medical claims totaling $12.6 million paid
                                               by OWCP to 2,700 providers from October 1, 2009 to
                                               December 31, 2010. This represented approximately one percent
                                               of all medical bills paid under FECA during the same period. The
                                               audit included analysis of OWCP policies and procedures to
                                               determine whether controls addressed DME request and approval
                                               procedures, billing procedures, and authorized DME substitutions.


                                               A member of HLB International. A world-wide organization of accounting firms and business advisers.


                                                                                       1                                                 FECA DME Payments
                                                                                                                                  Report No. 03-12-002-04-431
                                                                 Prepared by WithumSmith+Brown PC
                                        For the U. S. Department of Labor – Office of Inspector General

The audit reviewed OWCP actions to implement cost containment control measures by
establishing a fee schedule for allowable goods and services.

WS+B conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


RESULTS IN BRIEF
Results in Brief
OWCP has a series of controls over its DME payment administration process in order to
reduce the risk of improper payments 1 and ensure that DME costs are reasonable.
However, we found weaknesses in the controls related to documentation of the provider
enrollment process. We also found an increased risk of improper payments due to the
high number of claims using a “miscellaneous” procedure code, a lack of documentation
supporting a rental versus purchase analysis, and insufficient controls over the
determination of price reasonableness for cases deemed “catastrophic”.

We noted a significant weakness in the provider enrollment process due to lack of
documentation of the provider verification process. DME providers submit enrollment
forms to ACS for processing. Provider verification process policies and procedures
required ACS to perform several procedures to verify that providers were legitimate, but
documenting the verification process was not required. As a result, OWCP had no
assurance that these procedures were being adequately performed. We did not analyze
non-DME providers, but noted that OWCP required its service provider to follow the
same verification process for all medical providers.

OWCP’s review of payment requests needs strengthening due to the excessive use of
the DME–Miscellaneous procedure code for DME medical bills. We noted this
procedure code had the highest dollar amount of claims paid during our audit period
($1.5 million, or 13 percent of total DME claims) for 2,500 line items. Claims coded as
DME–Miscellaneous are at a much higher risk for improper payment because they are
not subject to a maximum allowable amount (MAA) and; therefore, if approved by a
claims examiner (CE) are “paid as billed.” It is at the CEs’ discretion to determine if the
amount is reasonable. We examined 10 of these claims and noted that determinations
of price reasonableness were not documented for 6 claims.



1
  Office of Management and Budget Circular A-123, Appendix C, defines Improper Payments as any payment that
should not have been made or that was made in an incorrect amount under statutory, contractual, administrative, or
other legally applicable requirements. Incorrect amounts are overpayments and underpayments (including
inappropriate denials of payment or service). An improper payment includes any payment that was made to an
ineligible recipient or for an ineligible service, duplicate payments, payments for services not received, and payments
that are for the incorrect amount.

                                                           2                                 FECA DME Payments
                                                                                      Report No. 03-12-002-04-431
                                                                 Prepared by WithumSmith+Brown PC
                                        For the U. S. Department of Labor – Office of Inspector General

OWCP did not always have evidence that the CEs had analyzed the cost effectiveness
to rent versus to buy for requests for new DME purchases. For 3 of the 13 DME cases
for which we analyzed rental payments, we determined that the rental payments
exceeded the price of a new purchase. In none of these cases was there evidence that
the CEs had performed any pricing analysis. The estimated overpayment as a result of
renting these three items was $24,713.

OWCP had limited controls over catastrophic claimant cases to ensure the costs were
reasonable. We performed an analysis of claimants with more than $20,000 in claims to
ensure that the billing was in line with expectations for the equipment in terms of usage
and frequency based on Centers for Medicare and Medicaid Services (CMS) 2 and
health insurance industry practices. A total of 12 claimants met these criteria, with
payments totaling $336,928. For seven claimants, we noted OWCP paid for items that
were typically denied by CMS as not medically necessary (e.g., power elevating seats),
at amounts that appeared excessive or for items that were not appropriately described.
Seven of these claimants were designated as “catastrophic cases” and all bills were
edited for duplication and limited by fee schedules, but treatment suites designed to limit
payments for accepted conditions were not applied. Our analysis of the seven
catastrophic cases found four claims for items that would not have been paid under
CMS or that OWCP agreed had been miscoded. The total paid for these four claims
was $43,833.

We recommended that the OWCP Acting Director establish additional controls to
document the provider enrollment process, the analysis and authorization of the use of
the DME–Miscellaneous code, and the performance of rental versus new purchase
analysis of DME. We also recommended that additional controls be implemented over
bills paid for catastrophic cases. Finally, we recommended that the OWCP Acting
Director initiate overpayment recovery procedures to recover the overpayments
identified in this audit.

In response to our draft report, the OWCP Acting Director partially agreed with our
recommendations. The OWCP Acting Director indicated the enrollment verification is
already adequately documented, agreed to provide additional guidance to claims staff to
reinforce existing procedures over review of miscellaneous DME, agreed to reinforce
procedures and develop new processes with the medical bill processing vendor for
rental versus purchase analysis, agreed to review current controls over catastrophic
cases, although it is unlikely further controls will be put in place, and indicated that
OWCP does not have authority to recover perceived rental versus purchase
overpayments mentioned in our report. The OWCP Acting Director’s entire response is
included in Appendix D.

We disagree with OWCP’s response regarding the adequacy of documentation over the
enrollment verification process and continue to believe that documentation over the
provider verification process should be improved. Additionally, OWCP’s response

2
    CMS is an operating division within the U.S. Department of Health and Human Services.

                                                          3                                FECA DME Payments
                                                                                    Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

regarding collection of perceived overpayments only addressed rental versus purchase
overpayments, and did not address other types of overpayments, such as those caused
by miscoding. We continue to believe that OWCP should carefully review the other
types of potential overpayments identified and determine where recovery attempts are
an option.


RESULTS AND FINDING

Objective — Did OWCP have adequate controls to ensure DME payments were
            proper and reasonable?

      Several of OWCP’s controls to prevent DME improper payments could be
      strengthened.

Finding — OWCP has controls in place to reduce the risk of improper and
          unreasonable DME payments, but controls in several areas could be
          strengthened.

OWCP has a series of controls to reduce the risk of improper payments, but gaps in the
design of certain controls allow for improper payments to occur and not be detected.
However, we found weaknesses in the controls related to documentation of the provider
enrollment process. Several procedures were required to be performed to verify that
providers were legitimate, but documenting this process was not required. As a result,
OWCP had no assurance that these procedures were being adequately performed.

We also found insufficient controls over the use of the DME–Miscellaneous procedure
code, the process for analyzing rentals versus new purchases of DME, and the
determination of DME price reasonableness in cases deemed “catastrophic.” Claims
coded as DME–Miscellaneous are at risk of being improper payments because they are
not subject to an MAA, and if approved by a CE are “paid as billed.” Our review of a
sample of claims identified more than $68,000 in questionable payments.

OWCP processes medical bills, including DME, through its third-party medical bill
claims-processing service provider, ACS. Medical bills, including DME bills, are
submitted to ACS and keyed into the medical bill processing system. The bills are then
imaged into an electronic document retrieval system. The bills undergo a series of
progressive edits before they can be paid. Key information from the bill is matched
against information in the bill processing system. The bill must be from a provider who is
enrolled in the FECA program, and for a claimant whose injury or disease has been
accepted and approved for medical payments. The medical bill system checks to see if
the bill is a potential duplicate payment based on the provider, dates of service, and
procedure codes. Next, the system checks to see whether there is a prior authorization
on file if required. Pre-authorization by a district office CE is required for all DME–
Miscellaneous requests and for DME over $2,000 with a specific Healthcare Current
Procedure Coding System (HCPCS) code. The bill is then matched against the


                                             4                           FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                                 Prepared by WithumSmith+Brown PC
                                        For the U. S. Department of Labor – Office of Inspector General

treatment suite edits, which identify what types of DME are allowable based on the
claimant’s accepted conditions (diagnosis codes). The treatment suites also identify
what, if any, additional authorizations are required.

OWCP developed a fee schedule for DME by using the CMS Durable Medical
Equipment, Prosthetics/Orthotics & Supplies (DMEPOS) Fee Schedule. The DMEPOS
Fee Schedule established MAAs for Medicare purposes in all 50 states plus several
territories. OWCP generally adopted the highest of these DMEPOS MAA then multiplied
that amount by a factor of 1.25. 3 This conversion factor (CF) multiplier was used to
account for Medicare co-payment and deductible amounts since OWCP did not require
an injured worker to pay either a co-payment or a deductible for covered services and
the DME providers were not permitted to bill any additional costs to the injured workers.

In addition, OWCP established MAAs for certain DME not covered by CMS that used
the HCPCS codes. These MAA were based on the most recent relative value units
(RVU) devised by state workers’ compensation data, and OWCP program-specific data.
OWCP also applied a geographic practice cost index (GPCI) value to each
reimbursement, and used its own CF for converting RVU and GPCI to maximum dollar
amounts.

The FECA Procedure Manual, Part 2, Chapter 2.0810, Developing and Evaluating
Medical Evidence, discusses the CE’s function in evaluating medical evidence and
authorizing treatment. Paragraph 17 covers special equipment and furniture and states:

         OWCP authorizes durable medical equipment to aid in the relief and
         healing for an accepted work-related condition. These items include those
         routinely found in medical supply sources, such as braces, crutches, etc.
         However, sometimes requests are received for equipment or furnishings
         not commonly obtainable from medical supply sources or prescribed for
         treatment (e.g. whirlpools, special beds or mattress sets, lift chairs,
         exercise equipments, motorized scooters, etc.) The OWCP will not
         approve elaborate or specialized equipment where a more basic
         alternative is suitable.

         In all instances, the CE must ensure that the equipment is necessary to
         treat the effects of the work related injury and that its use will be consistent
         with the claimant’s restrictions and safety. The CE must also determine
         whether rental or purchase is most cost effective, and whether the cost is
         commensurate with the basic (unadorned) item required for treatment. . . .

         The CE should obtain the following evidence from the physician:
         (1) A full, specific description of the basic equipment or furnishing required
         to treat effects of the job-related condition, along with an explanation of

3
 In 2010 only, this CF multiplier was adjusted to 1.33 due to the uncertainty surrounding Medicare’s final fee
schedule amounts.


                                                           5                                FECA DME Payments
                                                                                     Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

       how the item will address the effects of the work-related condition and the
       anticipated improvement. (2) The anticipated duration of the need for the
       item (in order to determine whether rental or purchase is appropriate).

       The CE should also obtain the following evidence from the claimant:
       (1) The full name of two or three suppliers, along with complete contact
       information for each. (2) From each potential provider, a signed statement
       describing in detail the basic, unadorned item meeting the physician’s
       specifications. If the claimant wants a more elaborate item . . . the
       claimant should submit a price quote for the basic item only. It is the
       claimant’s responsibility to pay for any enhancements.

       If the information received is incomplete or doubt exists about the
       suitability, appropriateness, or need for the equipment or furniture, the CE
       should undertake suitable development, such as requesting clarification
       from the AP or obtaining a second opinion examination.

The following presents the weaknesses we noted in the related processes to reduce the
risk of improper and unreasonable payments. These weaknesses covered improperly
documenting the provider enrollment process and determining cost reasonableness to
support approval of the use of the DME–Miscellaneous procedure code. We also noted
that OWCP needs to ensure it documents its determination of whether it is more cost
effective to rent or purchase DME and to identify additional controls to reduce the risk of
improper payments related to DME costs for catastrophic claimant cases.

Documentation of provider enrollment verification was not adequate to
support approval.

In order for a DME provider to receive compensation or reimbursement under the FECA
program, a DME provider must be enrolled in the OWCP Central Bill Pay system and
then submit valid invoices for DME provided to FECA beneficiaries, which were
physician ordered and necessary to treat an approved (accepted) medical condition.

We noted a significant weakness in the provider enrollment process due to lack of
documentation of the provider verification process. DME providers submit enrollment
forms to ACS for processing. ACS reviews the forms to ensure they are properly
completed. Provider verification process policies and procedures required ACS to
perform several procedures to verify that providers were legitimate, but documenting the
verification process was not required. As a result, OWCP had no assurance that these
procedures were being adequately performed.

We performed testing to determine if there were providers enrolled who did not appear
to be valid. We analyzed enrollments of 40 providers — all 25 providers with more than
$100,000 of claims in our audit period, and 15 randomly selected providers. Using data
in OWCP’s provider databases, we conducted online searches and phone calls to verify
if the provider appeared to be a legitimate business. One provider did not have a web

                                             6                           FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

site and could not be reached by its business phone; therefore, we performed
alternative procedures to determine the validity of the business. However, ACS did not
maintain documentation to support its determination of the legitimacy of this or the other
39 providers we tested. In response to our finding, OWCP indicated a “notes field” in the
data base is used for that purpose; however, our testing results did not find this field
utilized for such a purpose.

Although we did not analyze non-DME providers, OWCP requires the same verification
process to be followed by its service provider for all medical providers. Therefore,
without adequate documentation to support that verification procedures were actually
performed, controls over the provider enrollment process were not sufficient to support
approval.

Documentation supporting use of the DME–Miscellaneous code was
insufficient to support cost reasonableness determination.

OWCP’s review of payment requests needs strengthening regarding its use of the
DME–Miscellaneous procedure code for DME medical bills. We noted that for the audit
period, the DME–Miscellaneous procedure code had the highest dollar amount of
claims paid during our audit period ($1,584,050, or 13 percent, of total DME claims) for
2,500 bill line items. The majority of these claims, $1,265,274, were submitted by just 19
of the approximately 2,700 providers. These bills were at a much higher risk for
improper payment because they were not subject to a MAA and were therefore “paid as
billed.” We examined 10 of these claims and noted that the CEs’ determinations of price
reasonableness were not documented for 6 of these claims.

Although OWCP had controls designed to ensure that costs paid for certain items did
not exceed preset amounts, these controls can be circumvented for claims using the
DME–Miscellaneous procedure code.

Our analysis of the DME–Miscellaneous claims focused on providers who had claims
totaling at least $10,000, and whose volume of E1399 claims was 10 percent or more of
their total claims —15 providers met these criteria, totaling $1,031,718 and 1,377 bill
line items. We randomly selected 10 of these bill line items totaling $8,329 for further
testing. For these 10 items, we found the following:

   •	 Four items were under $150 and the item was paid as billed without evaluation,
      which was in accordance with OWCP policy.

   •	 All six of the remaining items were paid as billed. Of these six items, four did not
      include the following documentation which could be used to support the
      reasonableness of the amount paid:

          -   a manufacturer’s or wholesaler’s invoice (best practice) or manufacturer
              product information brochure;


                                             7	                          FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

          -   a Manufacturer’s Suggested Retail Price sheet (best practice); and

          -   a narrative description of the product (best practice).

Although all 10 items were approved by a CE as required by the FECA Procedure
Manual, we found the design of the controls did not require documentation to support
how the CE determined the amount paid was reasonable.

While we analyzed only DME bills, a similar miscellaneous code exists for other HCPCS
categories, which were outside the scope of this audit. Therefore we did not determine
whether similar risks also exist for these other non-DME miscellaneous codes.

Lack of adequate analysis of rental versus purchased DME can result in
high costs paid.

OWCP did not always have evidence that CEs analyzed the cost effectiveness to rent
or purchase when reviewing requests for new DME purchases. For 3 of the 13 DME
cases for which we analyzed rental payments, we determined that the rental payments
exceeded the price of a new purchase. In none of these cases was there evidence that
the CEs had performed any pricing analysis. The estimated overpayment as a result of
renting these three items was $24,713.

We analyzed rental equipment claims, which totaled $3.5 million for 10,282 bill line
items. We performed cost-reasonableness analysis of rentals with cumulative payments
in excess of $10,000 — 13 claims representing 142 bill line items totaling $158,996 met
these criteria.

In 3 of the 13 claims, the total rental amount paid was significantly higher than the price
of a new item, even under OWCP’s Fee Schedule, which provides for a maximum cost
that could be paid if purchased. Furthermore, none of the three claims had any
evidence that a cost analysis of rental versus purchase was performed. The following
chart provides details of the three claims.




                                              8                           FECA DME Payments
                                                                   Report No. 03-12-002-04-431
                                                              Prepared by WithumSmith+Brown PC
                                     For the U. S. Department of Labor – Office of Inspector General

                      Amount      Purchase
        Case #          Paid       Price1        Difference                 Comment
     062246837         $12,600       $1,458         $11,142 New purchase would have been less
                                                             than amount paid for rentals.
     160206005         $13,731      $10,107           $3,624 Total rental payments higher than
                                                             amount paid for as a new item under
                                                             OWCP fee schedule.
     102051628         $10,050          $103          $9,947 The item did not appear on the CMS
                                                             Fee Schedule as eligible for
                                                             reimbursement either as a new item
                                                             or a rental. In addition, the total of
                                                             the rental payments is significantly
                                                             higher than the price of a new item
                                                             under OWCP’s Fee Schedule
     Total            $36,381       $11,668        $24,713
1
    MAA per OWCP Fee Schedule for new purchase


Without documentation of the required determination by the CE of whether rental or
purchase is most cost effective, OWCP may have paid $24,713 in excessive DME
costs.

Cost reasonableness analysis of claims related to catastrophic cases
could be improved.

We analyzed claimants with more than $20,000 in claims to ensure that billing was in
line with expectations for the equipment in terms of usage and frequency based on
CMS and health insurance industry practices — 12 claimants met these criteria, with
payments totaling $336,928. We noted issues on 11 of these 12 claimants, as follows:

      •	 For four claimants, payments were made for items that would not have been paid
         under CMS or that OWCP agreed had been miscoded. The total paid under
         these four cases relating to these claims was $43,833.

      •	 For seven claimants, OWCP paid for items that were typically denied by CMS as
         not medically necessary (e.g. power elevating seats), at amounts that appeared
         excessive (e.g. $1,000 per month for an electric bill to operate an aquatic therapy
         unit in the home in addition to $2,000 to $4,000 per quarter for maintenance),
         and for items that were not appropriately described (e.g. “Misc. Supplies”.) In one
         instance, OWCP agreed it paid for too many units of oxygen, and agreed to
         establish unit controls for that procedure code.

      •	 For the same seven claimants, all had been designated as “catastrophic cases”;
         therefore, their bills were not subject to treatment suite edits for their relation to
         the accepted condition or for additional authorization.

According to the FECA Procedure Manual, catastrophic cases are defined as those that
are life-threatening or have extensive functional deficits where medical recovery is

                                                     9	                          FECA DME Payments
                                                                          Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

expected to extend over long or indefinite periods of time. Those cases with more than
12 accepted conditions are also often catastrophic. Catastrophic cases should be rare
(only 200 currently exist) and must be authorized by the District Director. We did not
evaluate the establishment of the original case as a catastrophic case, which in many
cases was done years before.

With catastrophic cases, treatment suite edits which are based on accepted conditions
and controls checking for additional authorizations are bypassed, such as edits for
relationship of prescriptions to accepted conditions, lack of authorization other than the
catastrophic designation by the District Director, or billing for add-on items where the
base item was not billed, which increases the risk of improper payments.


RECOMMENDATIONS

We recommend the OWCP Acting Director:

   1. Direct that the procedures performed during the provider enrollment process be
      documented to ensure controls as to who performed the verification, when it was
      done, and what procedures were performed are supported.

   2. Establish additional procedures to ensure CEs perform and document OWCP’s
      requirement for an analysis of cost reasonableness when authorizing payments
      for items coded as E1399 – Miscellaneous, as well as any other item that is “paid
      as billed” and not subject to fee schedule limitations.

   3. Direct CEs to perform and document a rental versus new purchase analysis for
      any rentals exceeding a certain time period and/or certain dollar threshold.

   4. Examine controls over bills paid for catastrophic cases to identify additional
      controls needed to reduce the risk of improper payments and excessive costs
      without negatively impacting the beneficiaries of the FECA program.

   5. Initiate overpayment recovery procedures to recover the overpayments identified
      in this audit.


We appreciate the cooperation and courtesies that OWCP and Division of Federal
Employees' Compensation (DFEC) personnel extended to WithumSmith+Brown during
this audit.




                                             10                          FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                        Prepared by WithumSmith+Brown PC
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





                              11                          FECA DME Payments
                                                   Report No. 03-12-002-04-431
                                 Prepared by WithumSmith+Brown PC
        For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                       12                          FECA DME Payments
                                            Report No. 03-12-002-04-431
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

                                                                                Appendix A
Background
Appendix A Background
FECA is one of four major disability compensation programs administered by DOL’s
OWCP. FECA provides wage replacement benefits, medical treatment, vocational
rehabilitation and other benefits to certain workers or their dependents that experience
work-related injury or occupational disease.

FECA provides workers' compensation coverage to three million Federal and Postal
workers around the world. The DFEC adjudicates new claims for benefits and manages
ongoing cases; pays medical expenses and compensation benefits to injured workers
and survivors; and helps injured employees return to work when they are medically able
to do so.

In FY 2009, 129,690 new cases were created. The program provided 253,000 workers
and survivors approximately $2.7 billion in benefits for work-related injuries or illnesses.
Of these benefit payments, over $1.7 billion was for wage-loss compensation, $848
million for medical and rehabilitation services, and $138 million for death benefit
payments to surviving dependents.

Federal employing agencies are responsible for reimbursing the Division of Federal
Employees' Compensation for their workers' compensation expenses. This
reimbursement occurs once each year through the chargeback process.

DME and supplies are authorized under Section 8103(a) of FECA. Under the provisions
of FECA, OWCP authorizes payment for medical services and establishes limits for fees
for such services. OWCP began to reimburse medical services under a schedule of
MAAs in 1986. Since June 1, 1994, the schedule has been based on the most recent
RVU devised by the U.S. Department of Health and Human Services, CMS, for services
described under the American Medical Association's Physicians' Current Procedural
Terminology, and the HCPCS.

In addition, OWCP uses program-specific data and the most recent CMS Clinical
Diagnostic Laboratory National Limit data, including carrier maximum, national limit, and
mid-point values, to establish RVU and conversion factors for clinical laboratory
procedures provided under OWCP programs. OWCP also devises its own RVU for
durable medical equipment, supplies, and other items or services such as those
described under procedure codes not utilized by CMS. Such RVU are based on state
workers' compensation data, and OWCP program-specific data.

OWCP also applies a schedule to certain durable medical equipment, supplies and
other items or services covered under the program. For implanted durable medical
equipment and prosthetic implants – most implants are paid under the Grouper/Pricer
processing of inpatient acute care hospital bills. For outpatient procedures, implants
must be billed on a separate line using the appropriate HCPCS code. Many implant
items have maximum fees under the OWCP fee schedule. If no maximum allowable

                                              13                          FECA DME Payments
                                                                   Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

levels are set by the fee schedule, OWCP will pay acquisition cost for implants,
provided the bill is accompanied by a copy of the original invoice clearly showing invoice
cost less applicable discounts.




                                             14                          FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

                                                                               Appendix B
Objective, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objective

Our audit objective was to determine if OWCP had adequate controls to ensure DME
payments were proper and reasonable.

Scope

WS+B, under contract with the DOL OIG, audited the DME process to administer
payments totaling $12,620,852 within the FECA as administrated by the OWCP for the
period from October 1, 2009 to December 31, 2010. We conducted this performance
audit in accordance with GAGAS. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. The audit included onsite fieldwork at the DOL national headquarters in
Washington, D.C.

Our audit focused on the DME payment process. The audit included a review of policies
and procedures, system user guides, written procedures related to the internal audit
process, list of DME items requiring a physician’s script, bill payment history reports,
lists of excluded providers, fee schedule calculations, and provider information. The
audit also included the use of data mining technology to review and extract possible
anomalies. We conducted interviews with various employees at OWCP.

Methodology

To accomplish our audit objectives, we followed a risk-based audit approach in order to
address risks and to achieve the objectives of this audit.

The objective of the audit was not to render an opinion on the FECA DME payments for
the period from October 1, 2009 to December 31, 2010, so the extent of testing
performed was scoped to specifically target the subject matter of the three audit
objectives in accordance with GAGAS for performance audits.

We obtained an understanding of the FECA DME program payment requirements. We
conducted interviews with FECA officials from the national office and local investigators
to gain an understanding of the DME payment processes. Policies and procedures
followed by OWCP employees were reviewed.

We also performed data analysis of the DME payments made from a database provided
by OWCP, examined selected provider enrollment documents, and examined selected
bills and related authorizations and medical evidence.


                                             15                          FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

Examples of the audit results and the relevance of the tests to the audits’ objectives are
provided in the body of the report.

Criteria

We used the following criteria to accomplish our audit:

   9 Government Auditing Standards as revised in 2007
   9 DOL OIG Office of Audit and Procedures Handbook, July 2009
   9 Federal Employee’s Compensation Act, as amended
   9 Title 20, Code of Federal Regulations, Part 10, Claims for Compensation under
      FECA
   9 Office of Workers’ Compensation Programs – Federal Employees’ Compensation
      Act Procedure Manual
   9 Office of Management and Budget Circular A-123, Appendix C, Requirements for
      Effective Measurement and Remediation of Improper Payments.




                                             16	                         FECA DME Payments
                                                                  Report No. 03-12-002-04-431
                                                     Prepared by WithumSmith+Brown PC
                            For the U. S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations
Appendix C Acronyms and Abbreviations
ACS            Affiliated Computer Services, Inc.
CE              Claims Examiner
CF              Conversion Factor
CMS             Centers for Medicare and Medicaid Services
DFEC            Division of Federal Employees’ Compensation
DME             Durable Medical Equipment
DMEPOS          Durable Medical Equipment, Prosthetics/Orthotics & Supplies
DOL             Department of Labor
FECA            Federal Employees’ Compensation Act
GAGAS           Generally Accepted Government Auditing Standards
GPCI            Geographic Practice Cost Index
HCPCS           Healthcare Current Procedure Coding System
MAA             Maximum Allowable Amount
OIG             Office of Inspector General
OWCP            Office of Workers’ Compensation Programs
RVU             Relative Value Units
WS+B            WithumSmith+Brown




                                           17                          FECA DME Payments
                                                                Report No. 03-12-002-04-431
PAGE INTENTIONALLY LEFT BLANK 





              18                    FECA DME Payments
                             Report No. 03-12-002-04-431
                                                       Appendix D
OWCP Response to Draft Report
Appendix D OWCP Response to Draft Report




                                      19          FECA DME Payments
                                           Report No. 03-12-002-04-431
20          FECA DME Payments
     Report No. 03-12-002-04-431
21          FECA DME Payments
     Report No. 03-12-002-04-431
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT: 


  Online:      http://www.oig.dol.gov/hotlineform.htm
  Email:       hotline@oig.dol.gov

  Telephone:   1-800-347-3756
               202-693-6999

  Fax:         202-693-7020

  Address:     Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
